No. 20-1410

3Jn the Supreme Court of the @lniteb States
DR. XIULU RUAN,

Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.
On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Eleventh Circuit
CERTIFICATE OF COMPLIANCE
As required by Rule 33.l(h), I, D. Hunter Smith, a
member of the Bar of this Court, hereby certify that
the Reply Brief for Petitioner in the above-captioned
case contains 2,883 words, excluding the parts of the
brief that are exempted by Rule 33.l(d).
This
certificate was prepared in reliance on the word-count
function of the word-processing system (Microsoft
Word for Office 365) used to prepare the document.
I declare under penalty of perjury that the
foregoing is true and correct.
~~

D. Hunter Smith

July 20, 2021

